Audit Report
Return
to the USDOJ/OIG Home Page
United States Marshals ServiceAnnual
Financial  Statement  Fiscal Year 2000
Report No. 01-30
September 28, 2001
Office of the Inspector General
COMMENTARY AND SUMMARY
The United States Marshals Service (USMS) is a component of the United States Department of Justice.  Its mission is to protect the federal courts and ensure the effective operation of the federal judicial system.  The USMS operations are organized into two major business lines:
(1) detention and incarceration and (2) protection of the federal judiciary and improvement of the justice system.
This audit report contains the Annual Financial Statement of the USMS for the fiscal year ended September 30, 2000.  Under the direction of the Office of the Inspector General (OIG), the audit was performed by Urbach Kahn & Werlin LLP and resulted in an unqualified opinion.  An unqualified opinion means the financial statements present fairly, in all material respects, the financial position and results of operating activity of the entity.  The USMS also received an unqualified opinion for its FY 1999 financial statements (OIG Report 00-25). Comparative financial statements were not required this year and are therefore not presented.
During FY 2000, the USMS made improvements in its financial reporting process but weaknesses still existed.  A material weakness was identified in the USMS's information system control environment.   In assessing controls over the financial statements the auditors identified system control weaknesses with regard to entity-wide program planning and management, access controls, application software development and change control, and service continuity.
The auditors noted reportable conditions related to weaknesses in the USMS's financial accounting reconciliation process, financial statement preparation process, and accounting for property received by district offices.
In the Report on Compliance with Laws and Regulations, the auditors reported that the USMS's financial management systems did not substantially comply with the requirements of the Federal Financial Management Improvement Act of 1996.  The auditors found that the financial management systems did not meet federal financial systems requirements.